APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Memorandum in the United States
Court of Appeals for the Ninth Circuit
(May 10, 2021). . . . . . . . . . . . . . . . App. 1
Appendix B Order in the United States District
Court for the District of Arizona
(April 30, 2020) . . . . . . . . . . . . . . . App. 6

App. 1

APPENDIX A
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 20-16009
D.C. No. 2:18-cv-00753-SRB-ESW
[Filed May 10, 2021]
___________________________________
CARLOS CASTRO,
)
)
Plaintiff-Appellee,
)
)
v.
)
)
BRAD MARTIN, in his individual
)
capacity and as an employee of the
)
Arizona Department of Public Safety; )
STATE OF ARIZONA,
)
)
Defendants-Appellants, )
)
and
)
)
ARIZONA DEPARTMENT OF
)
PUBLIC SAFETY; et al.,
)
)
Defendants.
)
___________________________________ )

App. 2
Appeal from the United States District Court
for the District of Arizona
Susan R. Bolton, District Judge, Presiding
MEMORANDUM*
Submitted May 6, 2021**
Portland, Oregon
Before: W. FLETCHER and FRIEDLAND, Circuit
Judges, and BLOCK,*** District Judge.
Defendants Detective Brad Martin and the State of
Arizona appeal the denial of summary judgment on a
suit brought by Plaintiff Carlos Castro, who was
severely injured after being bitten by a K9 on Martin’s
command. We have jurisdiction under 28 U.S.C. § 1291.
We affirm.
In March 2017, a group of police officers aided by a
SWAT team executed a residential search warrant to
arrest Castro, who was suspected of aggravated assault
and strong-arm robbery.1 Martin, a K9 handler with

*

This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

**

The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

***

The Honorable Frederic Block, United States District Judge for
the Eastern District of New York, sitting by designation.
1

We relate the version of facts most favorable to Castro, the
non-moving party, unless otherwise indicated. See Foster v. City of
Indio, 908 F.3d 1204, 1207 (9th Cir. 2018). Where, as here, there
is video evidence documenting the events in question, courts

App. 3
the Department of Public Safety, was part of the officer
team. Castro fled when the officers arrived at the
residence but was soon apprehended on the roof of a
neighboring home. Officers commanded Castro to both
“stop” and to get off the roof; when Castro did not
immediately leave the roof, an officer shot Castro twice
with a Taser. The impact of the Taser caused Castro to
fall off the roof, at which point four officers tackled
him. Castro contends that he did not resist while
face-down on the ground and that officers grabbed his
hands behind his back, maintaining full control over
him.2 Defendants counter that Castro resisted arrest by
locking his arms and hands underneath his torso and
by kicking.
Martin, who was observing the encounter, later
testified that he believed Castro presented a danger to
officers because Castro was allegedly resisting arrest
and because Martin thought Castro might be
concealing a firearm in his pants. Martin therefore
decided to deploy his K9 as a “pain compliance tool” to
assist in the arrest, and he commanded the dog to bite
Castro’s leg. Body camera video footage appears to
show that Castro was successfully handcuffed about 25
seconds after the K9 began its bite (or sooner), and that
another 12 to 26 seconds elapsed between Castro’s
should not accept an account that is “blatantly contradicted” by the
video, Scott v. Harris, 550 U.S. 372, 380 (2007), but must still
resolve any ambiguities left by the video in the non-moving party’s
favor, Blankenhorn v. City of Orange, 485 F.3d 463, 468 n.1 (9th
Cir. 2007).
2

Castro admitted during discovery that he “did not immediately
obey police commands to put [his] hands behind [his] back.”

App. 4
handcuffing and the release of the bite. Castro’s
injuries from the bite required multiple surgeries and
prolonged physical therapy.
Castro sued Martin under 42 U.S.C. § 1983, alleging
that the K9 bite constituted excessive force. He also
sued the State for Martin’s alleged battery and
intentional infliction of emotional distress, as well as
for the other officers’ alleged gross negligence, on a
vicarious liability theory. Defendants moved for
summary judgment. The district court, pointing to the
video showing the delay between Castro being
“handcuffed and subdued” and the end of the K9 bite,
held that genuine disputes of fact precluded summary
judgment and qualified immunity on all claims.
Because this is an interlocutory appeal from an
order denying qualified immunity, the scope of our
review is limited to questions of law. George v. Morris,
736 F.3d 829, 835 (9th Cir. 2013). “If the evidence,
reviewed in the light most favorable to [Castro], could
support a finding of excessive force, then the
defendants are not entitled to summary judgment.”
Smith v. City of Hemet, 394 F.3d 689, 701 (9th Cir.
2005) (en banc).
Although the parties make various arguments about
the legality of the entire exercise of force, this appeal
turns solely on the 12 to 26 seconds that passed
between when Castro was “handcuffed and subdued”
and when the K9 released its bite.3 “Our caselaw is
clear that an officer cannot direct a police dog to
3

Specifically, we do not consider parties’ arguments regarding
whether the initiation of the K9 bite constituted excessive force.

App. 5
continue biting a suspect who has fully surrendered
and is under the officer’s control.” Hernandez v. Town
of Gilbert, 989 F.3d 739, 745 (9th Cir. 2021) (describing
clearly established law as of May 2016, nearly a year
before Castro’s arrest); see also Watkins v. City of
Oakland, 145 F.3d 1087, 1090, 1093 (9th Cir. 1998)
(holding “that it was clearly established that excessive
duration of [a K9] bite . . . could constitute excessive
force,” and accordingly denying qualified immunity
when an officer allegedly “continued to allow [the K9]
to bite [the plaintiff] even though he was obviously
helpless and surrounded by police officers with their
guns drawn”). The evidence, viewed in Castro’s favor,
thus supports a violation of clearly established law.
This same factual dispute precludes summary
judgment on Castro’s tort claims. Defendants invoke
common law qualified immunity and statutory
immunity, but these defenses require an official to
reasonably believe that his action is lawful,
Chamberlain v. Mathis, 729 P.2d 905, 912 (Ariz. 1986),
or that his continued use of force is “immediately
necessary,” Ariz. Rev. Stat. § 13-409; Ryan v. Napier,
425 P.3d 230, 239 (Ariz. 2018) (“[A]lthough the use of
force can be justified [under § 13-409] at its
commencement, it loses legal justification at the point
the force becomes unnecessary.”).
AFFIRMED.

App. 6

APPENDIX B
NOT FOR PUBLICATION
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
No. CV 18-00753-PHX-SRB (ESW)
[Filed April 30, 2020]
_____________________________
Carlos Castro,
)
)
Plaintiff,
)
)
v.
)
)
Arizona Department of Public )
Safety, et al.,
)
)
Defendants.
)
_____________________________ )
ORDER
Plaintiff Carlos Castro, who is represented by
counsel, brought this civil rights action pursuant to 42
U.S.C. § 1983 and Arizona state law. (Doc. 70.)
Defendants move for summary judgment, and Plaintiff
opposes. (Docs. 105, 114.)
The Court will deny the Motion for Summary
Judgment.

App. 7
I.

Background

In his Third Amended Complaint, Plaintiff names
two Defendants: the State of Arizona and Arizona
Department of Public Safety (DPS) employee Brad
Martin. (Doc. 70 ¶¶ 2-3.) Plaintiff alleges that during
his arrest on March 10, 2017, Defendant Martin had
his K9 unit bite Plaintiff’s leg and the dog continued to
bite Plaintiff’s leg for 44 seconds. (Id. ¶¶ 9, 45, 61.)
Plaintiff further alleges that, at the time, he was being
held face down by officers on the ground, was
complying with their orders, was not resisting, and was
not armed. (Id. ¶¶ 35-37, 41-44.) Plaintiff suffered
severe, permanently disfiguring injuries to his leg, has
had multiple surgeries to treat the injuries to his leg,
and will need further surgeries and physical therapy
for his leg. (Id. ¶¶ 67-69.)
In Counts One, Two and Four, Plaintiff asserts
vicarious liability state law claims against the State of
Arizona for battery (Count One), intentional infliction
of emotional distress (Count Two), and gross negligence
(Count Four). (Id. ¶¶ 71-81, 90-98.) In Count Three,
Plaintiff asserts a Fourth Amendment excessive force
claim against Defendant Martin. (Id. ¶¶ 82-89.)
Plaintiff seeks damages, attorneys’ fees and costs.
II.

Summary Judgment Standard

A court must grant summary judgment “if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a); see
also Celotex Corp. v. Catrett, 477 U.S. 317, 322-23
(1986). The movant bears the initial responsibility of

App. 8
presenting the basis for its motion and identifying
those portions of the record, together with affidavits, if
any, that it believes demonstrate the absence of a
genuine issue of material fact. Celotex, 477 U.S. at 323.
If the movant fails to carry its initial burden of
production, the nonmovant need not produce anything.
Nissan Fire & Marine Ins. Co., Ltd. v. Fritz Co., Inc.,
210 F.3d 1099, 1102-03 (9th Cir. 2000). But if the
movant meets its initial responsibility, the burden
shifts to the nonmovant to demonstrate the existence
of a factual dispute and that the fact in contention is
material, i.e., a fact that might affect the outcome of
the suit under the governing law, and that the dispute
is genuine, i.e., the evidence is such that a reasonable
jury could return a verdict for the nonmovant.
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248, 250
(1986); see Triton Energy Corp. v. Square D. Co., 68
F.3d 1216, 1221 (9th Cir. 1995). The nonmovant need
not establish a material issue of fact conclusively in its
favor, First Nat’l Bank of Ariz. v. Cities Serv. Co., 391
U.S. 253, 288-89 (1968); however, it must “come
forward with specific facts showing that there is a
genuine issue for trial.” Matsushita Elec. Indus. Co.,
Ltd. v. Zenith Radio Corp., 475 U.S. 574, 587 (1986)
(internal citation omitted); see Fed. R. Civ. P. 56(c)(1).
At summary judgment, the judge’s function is not to
weigh the evidence and determine the truth but to
determine whether there is a genuine issue for trial.
Anderson, 477 U.S. at 249. In its analysis, the court
must believe the nonmovant’s evidence and draw all
inferences in the nonmovant’s favor. Id. at 255. The
court need consider only the cited materials, but it may

App. 9
consider any other materials in the record. Fed. R. Civ.
P. 56(c)(3).
III.

Facts
A. Plaintiff’s Objections

The facts are taken from Defendants’ Statement of
Facts (DSOF) (Doc. 106), Plaintiff’s Controverting
Statement of Facts (PCSOF) and Separate Statement
of Facts (PSSOF) (Doc. 115), and Defendants’ Response
to Plaintiff’s Controverting and Separate Statement of
Facts (Doc. 121), as well as evidence submitted by the
parties.
Plaintiff objects to several of Defendants’ facts on
the basis of relevance and as “overly prejudicial.” (Doc.
115 ¶¶ 4-6, 8, 10, 12, 16-17.) Those facts address
Plaintiff’s prior criminal record, criminal convictions,
gang membership, and an incident days before
Plaintiff’s arrest when police received a report that
Plaintiff had argued with members of his girlfriend’s
family and fired four shots. Plaintiff argues that he
“has already conceded his prior criminal past, but his
past is not the focus of inquiry before the Court.” (Doc.
115 ¶ 4.)
Defendants respond that Plaintiff’s prior criminal
conduct, gang membership, and recent felony
convictions are relevant to whether Defendant Martin’s
use of force was justified and the threat Plaintiff posed
to Martin and the other officers. (Doc. 121 ¶ 4, citing
Graham v. Connor, 49 U.S. 386, 396 (1989) (“The
‘reasonableness’ of a particular use of force must be
judged from the perspective of a reasonable officer on
the scene, rather than with the 20/20 vision of

App. 10
hindsight.”).) Defendants contend that Plaintiff “has
not made any substantive argument how he would be
unfairly prejudiced by the Court considering his own
criminal and violent acts since they were the basis for
why Plaintiff was wanted by police and why police
approached him in the manner they did.” (Id.)
The Court overrules Plaintiff’s objections to DSOF
paragraphs 4-6, 8, 10, 12, 16-17. Plaintiff’s prior
criminal history, criminal convictions, gang
membership, and the events that preceded his arrest
are relevant to the reasonableness of the use of force
and Defendants’ qualified immunity argument. See
Glenn v. Washington Cnty., 673 F.3d 864, 872 (9th Cir.
2011) (in evaluating whether an officer is entitled to
qualified immunity “[t]he most important factor is
whether the individual posed an immediate threat to
the safety of the officers or others”) (internal citation
an quotation marks omitted). Additionally, because the
excessive force analysis hinges on what a reasonable
officer would have done under the facts known to him
or her at the time, the Court must take an
individualized approach to each Defendant, considering
only those facts known to him or her at the time of the
arrest. Graham, 49 U.S. at 396. Accordingly, where the
evidence shows Defendant Martin had knowledge of
particular facts, these facts must be considered. But
where the evidence does not establish such knowledge,
such facts will not be considered and will not prejudice
Plaintiff.
B. Video Evidence
Where the parties’ versions of events differ, the
Court takes Plaintiff’s facts as true. See Anderson, 477

App. 11
U.S. at 255. In this case, there is also video footage of
the incident giving rise to Plaintiff’s excessive force
claim. (See Doc. 106, Defs.’ Ex. F (Video); Doc. 115, Pl.
Ex. 2 (Video).)1 The Court considers the facts in the
light depicted by the video, but still draws all
inferences from the video in Plaintiff’s favor. See Scott
v. Harris, 550 U.S. 372, 380–81 (2007) (a court may
properly consider video evidence in ruling on a motion
for summary judgment and should view the facts “in
the light depicted by the videotape”); Williams v. Las
Vegas Metro. Police Dep’t, No. 2:13-CV-1340-GMNNJK, 2016 WL 1169447, at *4 (D. Nev. Mar. 22, 2016)
(“[t]he existence of the video does not change the usual
rules of summary judgment: in general, the court will
draw all reasonable inferences from the video in
plaintiff’s favor”) (citing Blankenhorn v. City of Orange,
485 F.3d 463, 468 n.1 (9th Cir. 2007)).
....
....
C. Relevant Facts
Defendant Martin has been a K9 handler for DPS
since January 2016; prior to that, he was a K9 handler
for six years with the Ingham County Sheriff’s Office in
Michigan. (DSOF ¶ 1.) Between January 2016 and
March 2017, K9 Storm, a Belgian Shepherd, had been
on hundreds of deployments with Martin. (Id. ¶ 2.)

1

The two exhibits appear to be video from the same body camera,
but Defendants’ exhibit provides a longer excerpt, which includes
the search for Plaintiff before Plaintiff was found on the roof of a
house until shortly after his arrest. Plaintiff’s video begins at the
time Plaintiff was found on the roof until after his arrest.

App. 12
Both Martin and Storm are certified annually as part
of their continuing police training. (Id. ¶ 3.)
In March 2017, Plaintiff was known to officers in
the State Gang Task Force (“GIITEM”) due to his
membership in the Peoria street gang “Dog Town.” (Id.
¶ 4.) At that time, Plaintiff had multiple felony
convictions, including Aggravated Assault on a Law
Enforcement Officer, Theft of Means of Transportation,
Theft, and Possession of Drug Paraphernalia, and had
served just over four years in the Arizona Department
of Corrections from 2012 to 2016. (Id. ¶¶ 5-6.) After
Plaintiff’s release from prison in 2016, he absconded
from community supervision and a warrant for his
arrest was issued. (Id. ¶ 7.) On December 2, 2016,
Plaintiff resisted arrest and successfully fled from
police as they tried to pull him over. (Id. ¶ 8.) After
that, Plaintiff was also wanted for Resisting Arrest, a
Class 6 Felony. (Id.)
On March 3, 2017, Plaintiff was at the home of the
parents of his then-girlfriend, Ashley Benton. (Id. ¶ 9.)
Although Plaintiff was a prohibited possessor due to
his felony convictions, he had a 9 mm handgun in the
car. (Id.) An argument ensued and Plaintiff, who was
in the car, fired two shots, drove a short distance, and
fired at least two more shots.2 (Id.; Doc. 106-1 at 49 (Pl.
Dep. at 92:12-15).) Plaintiff states that all four shots
were fired into the air and that there is no evidence
that he pointed a gun at any person or shot at any
person. (PCSOF ¶ 9.) Police were called to the scene

2

The parties dispute who was involved in the argument, but that
is not relevant to the Court’s analysis.

App. 13
after the shooting and witnesses identified Plaintiff as
the shooter. (DSOF ¶ 10.) Benton’s family told officers
that Plaintiff was a gang member, was wanted for a hit
and run on a police officer, was connected to two
homicides, addicted to drugs, owned a firearm, had
previously assaulted Benton and threatened to kill the
Benton family. (Id.) At the time, Plaintiff was
intoxicated on methamphetamines. (Id. ¶ 11.) After
this incident, Plaintiff was wanted for additional
felonies: Aggravated Assault with a Deadly Weapon,
Misconduct Involving Weapons, and Endangerment.
(Id. ¶ 12.) Plaintiff later pleaded guilty to Aggravated
Assault with a Deadly Weapon related to this incident.
(Id. ¶ 10.)
On March 10, 2017, GIITEM police learned that
Plaintiff had committed a strong-arm robbery and
assaulted a store employee at a Glendale, Arizona JC
Penney. (Id. ¶ 13.) Plaintiff disputes this statement,
asserting that he has never been convicted of an
assault or robbery at JC Penney (PCSOF ¶ 13), but
Plaintiff does not dispute that this information was
provided to GIITEM.
In response to the March 3, 2017 aggravated assault
and the March 10, 2017 robbery and assault at JC
Penney, police, on March 10, 2017, obtained a search
warrant to locate Plaintiff through his cell phone.3
(DSOF ¶ 18.) Plaintiff’s cell phone was tracked to a

3

Plaintiff disputes DSOF ¶ 18, again asserting that he was never
charged with or convicted of an assault and robbery at JC Penney
(PCSOF ¶ 18), but he does not dispute that the alleged assault and
robbery were part of the basis for the search warrant.

App. 14
house in Glendale, and Glendale Police officers
confirmed Plaintiff was there. (Id. ¶ 19.) Detectives
obtained a residential search warrant for the house.
(Id. ¶ 20.) Because of the nature of the crimes Plaintiff
was suspected of, his criminal history, and because he
was presumed to be armed, the DPS Special Weapons
and Tactics (SWAT) team led the way for police in
executing the search warrant. (Id. ¶ 20.) A GIITEM
detective briefed the officers who were participating in
the execution of the search warrant, including
Defendant Martin, about the risk factors and Plaintiff’s
violence potential. (Id. ¶ 24.) They were briefed that
Plaintiff was a documented gang member, had prior
felony convictions including aggravated assault, had
recently been released from prison and had absconded
from community supervision, had an outstanding
arrest warrant, was suspected of committing
aggravated assault with a firearm the week before, and
was suspected of committing a strong-arm robbery and
an assault earlier that day. (Id.)
In his response to requests for admission, Plaintiff
admitted that he was a gang member on March 11,
2017, but at his deposition, Plaintiff contradicted that
admission, claiming that “in his own mind, he no longer
considered himself a member of the Dog Town street
gang in 2016.” (Id. ¶¶ 25-26.) Plaintiff did admit to
getting a Dog Town gang tattoo on his face while in jail
after March 11, 2017, and numerous other Dog
Town-related gang tattoos prior to that day, but he
“agreed getting the face tattoo was a mistake.” (Id.
¶ 27; PCSOF ¶ 27.) Nevertheless, Defendant Martin
“knew that Plaintiff was a documented Dog Town gang
member on March 10-11, 2017.” (DSOF ¶ 28.)

App. 15
On
March
10,
2017,
Plaintiff
used
methamphetamines earlier in the day and again that
night at the Glendale house, along with heroin. (Id.
¶ 22.) Police arrived to execute the residential search
warrant shortly after midnight on March 11, 2017. (Id.
¶ 29.) Just before their arrival, Plaintiff’s girlfriend,
who was also at the residence, warned Plaintiff that
police were coming; Plaintiff looked out a window and
saw SWAT officers throw flash grenades and Plaintiff
fled out the back door of the house. (Id. ¶ 30.) Plaintiff
testified that he fled from police because he was on the
run after absconding from his community supervision
and concerned about being arrested for the March 3,
2017 aggravated assault. (Id. ¶ 31.) Plaintiff hopped
several fences into neighboring yards and then hid in
a shed; Plaintiff heard police walk past the shed and
the sound of a helicopter. (Id. ¶ 32.) Police then set up
a perimeter to prevent Plaintiff’s escape. (Id. ¶ 33.)
Defendant Martin and K9 Storm searched the house
and then the backyard of nearby homes. (Id.) At each
location, Martin gave a warning that he was deploying
his K9, stating “State police canine. Come to the sound
of my voice now. If you do not, a K9 will be deployed
and he will bite you.” (Id.) Martin gave this warning
eight times (id.), but while Plaintiff was hiding in the
shed, he never heard officers give K9 commands or saw
any K9s. (PCSOF ¶ 33.) Other officers informed Martin
that suspected methamphetamines were found inside
the house from which Plaintiff had fled, and, upon
learning this, Martin believed Plaintiff might be under
the influence of methamphetamines. (DSOF ¶ 35.)
After about ten minutes in the shed, Plaintiff left
and “continued fleeing police by climbing a nearby

App. 16
backyard ladder onto the roof of a house,” where he hid
in the leaves and branches of an overhanging tree.
(DSOF ¶ 36.) Plaintiff disputes that he “continue[d]
fleeing” and states that he, instead, “climbed on top of
the roof from the ladder in the backyard while
determining how to surrender because he ‘knew [he]
was caught’ and recognized that Officers were in the
front.” (PCSOF ¶ 36.)
The parties dispute much of what happened while
Plaintiff was on the roof. According to Defendants, a
police officer spotted Plaintiff on the roof and ordered
him to come down, but Plaintiff did not obey the
command. (DSOF ¶ 37.) Instead, Plaintiff moved away
from the ladder he had used to climb up and walked
toward the front of the house. (Id.) Plaintiff was then
sitting on the roof, and officers ordered him to get down
off the roof immediately, and Defendant Martin “gave
Plaintiff commands to stop that Plaintiff did not obey.”
(Id. ¶ 38.) Plaintiff heard the police commands to get
down off the roof but did not obey them and said, “I’m
done” and raised his hands momentarily before putting
them back down again. (Id. ¶¶ 39-40.) Plaintiff initially
sat on the roof with his legs dangling over the edge, but
as more officers arrived, he slid backwards away from
the police and further up the roof. (Id. ¶ 43.) Plaintiff
could see at least one police K9 standing on the ground
in front of him and barking. (Id. ¶ 44.)
During this time, Defendant Martin continued to
perceive Plaintiff as threat and believed that Plaintiff
was armed due to his violent background and recent
use of a firearm and because Plaintiff had not yet been
searched. (Id. ¶ 45.) Although Plaintiff was not wearing

App. 17
a shirt, in Martin’s experience, gang members typically
do not carry handgun holsters but instead carried
handguns in their pants, underwear, or around their
ankles. (Id.) Also, Plaintiff was on the roof, above the
officers commanding him to come down, and they did
not have immediate cover to protect themselves if
Plaintiff was armed and began opening fire. (Id.) Based
on his training and experience, it appeared to Martin
and other officers that Plaintiff was not actually
surrendering to police “because he made no move to
comply with police commands and come down from the
roof or keep his hands up. Instead, Defendant Martin
“believed that Plaintiff was merely catching his breath
and stalling for time while Plaintiff tried to figure out
how he could continue to flee from police.” (Id.
¶¶ 46-47.)
According to Plaintiff, he did not disobey the first
order to come down from the roof; instead, by walking
towards the front of the roof, he was walking towards
the officer and was in the process of obeying the
officer’s commands. (PCSOF ¶ 37.) Plaintiff was given
conflicting commands to both “stop” and get off the
roof, but he nevertheless walked to the edge of the roof
towards the officers and within their line of sight, sat
down, put his feet over the edge of the roof, and said
“I’m done.” (Id. ¶ 38.) Plaintiff was well illuminated by
a police spotlight. (Id. ¶ 45.) Plaintiff “repeatedly tried
to comply with police commands and verbally
surrendered to police, stating, ‘I’m done’ six times
before being inappropriately Tasered off the roof.” (Id.
¶ 46.)

App. 18
Defendants respond that Plaintiff previously
admitted to hearing and disobeying officers’ commands
to come down from the roof immediately and they cite
to their Requests for Admissions in which Plaintiff
admitted that he “heard police commands to
immediately come down from the roof” and that he “did
not obey police commands to immediately come down
from the roof.” (Doc. 121 ¶ 38; Doc. 106-1 at 111-12.)
Although Plaintiff said, “I’m done,” Plaintiff did not
acknowledge police commands, did not come down from
the roof, and did not keep his hands in the air. (Doc.
121 ¶ 46.)
According to Defendants, because Plaintiff was
ignoring police commands to come down, one of the
officers ordered a non-lethal measure be used to take
Plaintiff into custody, and a Glendale police officer
fired a Taser at Plaintiff. (DSOF ¶ 49.) The Taser had
minimal effect on Plaintiff; Plaintiff said, “I’m done, I’m
done,” and again put his hands up briefly before
putting them down again. (Id.) Because of the Taser’s
apparent ineffectiveness on Plaintiff and knowing that
methamphetamines were found in the house from
which Plaintiff had fled, Defendant Martin believed
Plaintiff was under the influence of
methamphetamines. (Id. ¶ 50.) Martin knew from his
experience as a law enforcement officer that non-lethal
police weapons such as Tasers can be less effective on
suspects intoxicated on drugs such as
methamphetamines or heroin. (Id. ¶ 51.) An officer on
the ground yelled to Plaintiff, “Come down and get
down on your face or you’re going to get bit!,” and
Plaintiff heard multiple other warnings that police

App. 19
would release a K9 if Plaintiff did not comply with
their commands. (Id. ¶¶ 52-53.)
According to Plaintiff, he was not ignoring police
commands but was attempting to comply with
conflicting commands and that the Taser obviously had
an effect on him because he cried out in pain upon
being struck. (PCSOF ¶ 49.) Plaintiff does not dispute
that an officer warned him to come down or he would
get bit but states that he “was also given the conflicting
command to ‘stop.’” (Id. ¶ 52.) Two police dogs and at
least ten officers “swarm[ed] Plaintiff from below with
weapons drawn,” and he did not reach for his
waistband or pants pocket. (PSSOF ¶¶ 3-4, 6.) Also,
while Plaintiff was attempting to comply with police
commands to come down from the roof, an officer was
heard telling one of the police dogs to “bite him, bite
him, bite him.” (Id. ¶ 7.) After Plaintiff was hit by the
Taser, he cried out and repeated four times “I’m done”
and that he did not want to fall off the roof. (Id. ¶ 8.)
Plaintiff was struck by a second Taser round and fell
from the roof less than a second later, falling about five
feet from his position on the roof. (Id. ¶¶ 9-11.)
The parties further dispute what happened once
Plaintiff was on the ground. Under Defendants’
version, once Plaintiff was off the roof, he landed on his
hands and feet and was tackled by DPS SWAT
members Detective Headley and Trooper Engwis to
keep him from escaping. (DSOF ¶ 55.) Officers then
commanded Plaintiff to put his hands behind his back;
Plaintiff heard the commands but did not obey them.
(Id. ¶ 56.) Headley and Engwis saw Plaintiff trying to
clench his arms beneath his torso, which prevented

App. 20
officers from gaining control of his hands and
handcuffing him. (Id. ¶ 57.) Headley and Engwis
commanded Plaintiff to stop resisting and Plaintiff
heard at least some of these commands, but he
continued to struggle with officers. (Id. ¶¶ 58-59.)
Engwis punched Plaintiff in the head three times but
Plaintiff still did not release his hands. (Id. ¶ 59.)
Defendant Martin saw officers struggling with
Plaintiff and still believed Plaintiff might be armed
based on Plaintiff’s prior violent felony conviction and
suspected aggravated assault with a deadly weapon a
week earlier as well as his strong-arm robbery and
assault earlier that day, his active resistance and
continued failure to follow police commands, and
because Plaintiff had not yet been searched for
weapons. (Id. ¶ 60.) Plaintiff was yelling while police
K9s, including Storm, were barking. (Id. ¶ 61.) Martin
saw Plaintiff put his arms beneath his torso and kick
with his legs, and Martin decided to deploy Storm on
Plaintiff’s lower leg as a pain compliance tool after
observing Plaintiff continue to resist officers and not
allowing them to handcuff him. (Id. ¶ 62.) Just before
Martin deployed Storm, a Glendale police officer
grabbed Plaintiff’s left foot and briefly held his flailing
leg still, and Storm then bit Plaintiff’s left calf. (Id.
¶ 63.) Officers had not yet been able to place flex cuffs
on Plaintiff. (Id.) Although Storm was biting his calf,
Plaintiff did not immediately put his hands behind his
back and continued to resist arrest; Plaintiff also
kicked Storm multiple times while Storm was biting
him. (Id. ¶ 64.) Officers continued to order Plaintiff to
stop resisting, and eventually officers were able to gain
control of both of Plaintiff’s hands and place them into

App. 21
plastic flex cuffs. (Id. ¶¶ 65-66.) Once Plaintiff was in
the flex cuffs, Martin put his arm around Storm and
gave him the verbal command to release from the bite.
(Id. ¶ 67.) Storm released from the bite, and Martin led
Storm away. (Id.) Other officers picked Plaintiff up and
led him to the street where medical personnel could
treat him. (Id.) Defendants assert that it is unclear how
long the K9 bite lasted but what is clear “is that Storm
was released from the bite as soon as Plaintiff was
handcuffed.” (Id. ¶ 68.)
Plaintiff disputes that he was trying to escape after
Headley and Engwis tackled him, and he states that he
could not comply with their commands because the
officers were holding his arms. (PCSOF ¶¶ 55-56.)
Plaintiff could not clench his arms beneath his torso or
otherwise resist officers’ attempts to handcuff him
because officers immediately grabbed his hands and
maintained full control over them. (Id. ¶ 59.) Plaintiff
disputes that Martin had any reason to fear Plaintiff
was armed because Plaintiff was shirtless and fully
illuminated by the police helicopter while he was on the
roof and when he was on the ground he was pinned on
his stomach by at least four officers, which eliminated
the possibility that he could retrieve a firearm from the
front of his waistband and open fire on the officers. (Id.
¶ 60.) Plaintiff claims he was not resisting arrest but
was reacting to being bitten by a dog who tore chunks
out of his flesh and muscle, and the use of Storm
exacerbated Plaintiff’s arrest. (Id. ¶ 64.) Plaintiff
asserts he was already cuffed when Storm bit him. (Id.
¶ 65.) Plaintiff contends the bite lasted 86 seconds,
which Defendants dispute and point out that Plaintiff

App. 22
said in his Complaint that the bite lasted 44 seconds.
(PCSOF ¶ 68; Doc. 121 ¶ 68.)
Defendants argue that Plaintiff’s contention that he
could not comply with officers’ commands contradicts
his admissions that he heard police commands to put
his hands behind his back when he landed on the
ground and that he disobeyed those commands. (Doc.
121 ¶ 56.) Defendants cite to Plaintiff’s admissions to
the following statements: (1) “Admit that once on the
ground after you came down from the roof, you heard
police commands to put your hands behind your back.”;
(2) “Admit that once on the ground after you came
down from the roof, you did not immediately obey
police commands to put your hands behind your back.”
(Doc. 106-1 at 107.) Defendants assert that Plaintiff did
not qualify his admissions in any way such as by
stating that he was unable to comply. (Doc. 121 ¶ 56.)
Plaintiff did not have a gun at the time of his arrest.
(PSSOF ¶ 22.) “Because of the dog bite, Plaintiff
suffered severe, permanently disfiguring injuries to his
leg that have required multiple surgeries and extensive
physical therapy to treat.” (Id. ¶ 1.)
The Court has reviewed the body cam video
provided by the parties and observes the following.4 In
the video excerpt provided by Plaintiff, which is three

4

As noted, the video provided by Plaintiff and Defendants appear
to be from the same camera, but Defendants’ exhibit is longer.
Because the relevant portion of the video begins when Plaintiff is
found on the roof, and it is the same footage in both Plaintiff’s and
Defendants’ exhibits, the Court will only refer to the shorter
excerpt provided by Plaintiff.

App. 23
minutes and 29 seconds long, Plaintiff is first seen
sitting on the sloped roof of a house with his legs
hanging over the edge. (Pl. Ex. 2 at Timestamp
T07:38:19Z (10 seconds into the video).) Several
officers, including one with a K9, enter the scene and
order Plaintiff to come down; Plaintiff says several
times, “I’m done,” and pulls his knees and feet onto the
roof, holds his hands out and says, “I’m done.” (Id. at
T07:38:19Z to T07:38:30Z (10 to 20 seconds into the
video).) Plaintiff makes no moves to come down from
the roof. A Taser is fired, striking Plaintiff, and he
screams again, “I’m done, I’m done,” and someone yells,
“come down and get on your face or you’re gonna get
bit” and Plaintiff says, “I’m done, I don’t want to fall.”
(Id. at T07:38:32Z to T07:38:38Z (23 to 29 seconds into
the video).) Plaintiff does not come down from the roof
after being struck by the first Taser.
The view of Plaintiff is momentarily blocked by
another officer in the frame, but the sound of a second
Taser shot is heard and Plaintiff falls off the roof, and
four or five officers rush to surround him; two officers
with K9 units barking and lunging rush in as well. (Id.
at T07:38:38Z to T07:38:47Z (29 to 38 seconds into the
video).) At timestamp T07:38:52Z (43 seconds into the
video), Plaintiff’s right arm is seen outstretched, but
his left arm appears to be under his torso. Plaintiff’s
hands are not yet cuffed behind his back. At timestamp
T07:38:54Z (45 seconds into the video), one of the K9
units bites Plaintiff’s leg. Officers can be heard saying,
“stop resisting” and “stop fighting.” At timestamp
T07:39:03Z (54 seconds into the video), it appears that
one of the officers kneeling over Plaintiff removes
zipties from the back of his vest. The view of the

App. 24
camera turns away from Plaintiff for a time and at
T07:39:28Z (1:19 seconds into the video), someone says,
“All right. He’s cuffed up.” At that time, Plaintiff
appears to be lying still, but the K9 can be seen with
his mouth on Plaintiff’s leg. At T07:39:36Z (1:27
seconds into the video), the K9 still has his head down
over Plaintiff, and from T07:39:37Z to T07:39:40Z (1:28
to 1:31 seconds into the video), the K9 is seen lifting
Plaintiff’s leg up with his mouth and holding on. After
that, Plaintiff and the K9 are not in view, but Plaintiff
can still be heard screaming, “ow, ow” at T07:39:47Z
(1:38 seconds into the video). The next view of the K9
that bit Plaintiff is at T07:39:54Z (1:46 seconds into the
video) and he is no longer holding Plaintiff’s leg.
IV.

Excessive Force (Fourth Amendment)
A. Legal Standard

A claim that law enforcement officers used excessive
force in the course of an arrest is analyzed under the
Fourth Amendment and its “reasonableness” standard.
Graham, 490 U.S. at 395. This inquiry requires a
“careful balancing of the nature and quality of the
intrusion on the individual’s Fourth Amendment
interest against the countervailing governmental
interests.” Id.
To determine whether a Fourth Amendment
violation has occurred, the court conducts a three-step
analysis assessing: (1) the nature of force inflicted;
(2) the governmental interests at stake, which involve
factors such as the severity of the crime, the threat
posed by the suspect, and whether the suspect is
resisting arrest (the “Graham factors”); and

App. 25
(3) whether the force used was necessary. Espinosa v.
City & Cnty. of San Francisco, 598 F.3d 528, 537 (9th
Cir. 2010) (citing Graham, 490 U.S. at 396-97, and
Miller v. Clark Cnty., 340 F.3d 959, 964 (9th Cir.
2003)).
“The reasonableness of a particular use of force
must be judged from the perspective of a reasonable
officer on the scene, rather than with the 20/20 vision
of hindsight.” Graham, 490 U.S. at 396 (1989) (citing
Terry v. Ohio, 392 U.S. 1, 20-22 (1968)). This is because
“[t]he calculus of reasonableness must embody
allowance for the fact that police officers are often
forced to make split-second judgments—in
circumstances that are tense, uncertain, and rapidly
evolving—about the amount of force that is necessary
in a particular situation.” Graham, 490 U.S. at 396-97.
At the summary judgment stage, once the court has
“determined the relevant set of facts and drawn all
inferences in favor of the nonmoving party to the extent
supportable by the record,” the question of whether or
not an officer’s actions were objectively reasonable
under the Fourth Amendment is a “pure question of
law.” Scott, 550 U.S. at 381 n.8. But an officer is not
entitled to summary judgment if the evidence, viewed
in the nonmovant’s favor, could support a finding of
excessive force. Smith v. City of Hemet, 394 F.3d 689,
701 (9th Cir. 2005). Because the excessive force
balancing test is “inherently fact specific, the
determination whether the force used to effect an
arrest was reasonable under the Fourth Amendment
should only be taken from the jury in rare cases.” Green
v. City and Cnty. of San Francisco, 751 F.3d 1039, 1049

App. 26
(9th Cir. 2014) (internal quotation marks omitted); see
Smith, 394 F.3d at 701 (excessive force cases often turn
on credibility determinations, and the excessive force
inquiry “nearly always requires a jury to sift through
disputed factual contentions, and to draw inferences
therefrom”) (quotation omitted).
B. Discussion
1. Nature of the Force Inflicted
The parties dispute how long the dog bite lasted.
Defendants do not specify how long the bite lasted, but
dispute Plaintiff’s contention that it was 88 seconds.
The video submitted by the parties shows the dog bite
began around 42 seconds into the video provided by
Plaintiff and did not end until 1:31 seconds into the
video, at the earliest, or approximately 50 seconds. The
dog bite caused severe, permanently disfiguring
injuries to Plaintiff’s leg that have required multiple
surgeries and extensive physical therapy to treat.
Accordingly, drawing all inferences in Plaintiff’s favor,
the record shows that the forced used during Plaintiff’s
arrest was enough to cause severe physical injury,
which must be justified by a similar level of
“government interest [that] compels the employment of
such force.” See Deorle v. Rutherford, 272 F.3d 1272,
1280 (9th Cir. 2001).
2. Governmental Interest
In evaluating the government’s interest in the use
force, the Court considers the severity of the crime, the
threat posed by the suspect, and whether the suspect
resisted arrest or attempted to flee. Miller, 340 F.3d at
964. Here, it is undisputed that Plaintiff was a

App. 27
documented gang member, had prior felony convictions
including aggravated assault, had recently been
released from prison and absconded from community
supervision, had an outstanding arrest warrant, was
suspected of committing aggravated assault with a
firearm the week before, and was suspected of
committing a strong-arm robbery and an assault the
day before his arrest. Moreover, Plaintiff fled when he
saw the police, hid in a shed, and then climbed onto a
roof. Based on these facts, the government’s interest in
apprehending and arresting Plaintiff was high.
3. Necessity of Force
Finally, the Court must balance the force used
against the need for such force to determine whether
the force used was “greater than reasonable under the
circumstances.” Espinosa, 598 F.3d at 537 (quoting
Santos v. Gates, 287 F.3d 846, 854 (9th Cir. 2002)). It
is undisputed that Plaintiff initially fled when police
arrived at the home and hid in a shed while they
searched for him. What happened between the time
police spotted Plaintiff on the roof and after the dog
bite is disputed. Based on the video evidence, no
reasonable jury could find that Plaintiff was
attempting to comply with police orders to come down
from the roof. Once he fell from the roof after being hit
twice with a Taser, Plaintiff contends he was not
resisting or refusing to put his hands out for
handcuffing, but the video depicts otherwise. Plaintiff
continued to struggle while on the ground before the
K9 was deployed.
In Defendants’ request for
admissions Plaintiff admitted he did not immediately
comply with orders to put his hands behind his back.

App. 28
But the video evidence appears to show that the K9
continued to bite Plaintiff’s leg for at least 12 seconds
after Plaintiff was handcuffed and subdued. Based on
the record evidence, there is a genuine issue of material
fact whether the force used was greater than
reasonable under the circumstances. Defendant Martin
is not entitled to summary judgment on the merits of
Plaintiff’s claim in Count Three.
C. Qualified Immunity
Defendants argue that, even if the Court finds a
constitutional violation, Defendant Martin is entitled
to qualified immunity.
1. Legal Standard
Government officials are entitled to qualified
immunity from civil damages unless their conduct
violates “clearly established statutory or constitutional
rights of which a reasonable person would have
known.” Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982).
Officials are not entitled to qualified immunity if
“(1) they violated a federal statutory or constitutional
right, and (2) the unlawfulness of their conduct was
‘clearly established at the time.’” District of Columbia
v. Wesby, — U.S. —, 138 S. Ct. 577, 589 (2018) (quoting
Reichle v. Howards, 566 U.S. 658, 664, (2012)). Courts
may address either prong first, depending on the
circumstances in the particular case. Pearson v.
Callahan, 555 U.S. 223, 230–32, 235-36 (2009).
For a right to be clearly established there does not
have to be a case directly on point; however, “‘existing
precedent must have placed the statutory or
constitutional question beyond debate.’” White v. Pauly,

App. 29
— U.S. —, 137 S. Ct. 548, 551 (2017) (quoting Mullenix
v. Luna, — U.S. —, 136 S. Ct. 305, 308 (2017)).
Accordingly, a right is clearly established when case
law has been “earlier developed in such a concrete and
factually defined context to make it obvious to all
reasonable government actors, in the defendant’s place,
that what he is doing violates federal law.” Shafer v.
Cnty. of Santa Barbara, 868 F.3d 1110, 1117 (9th Cir.
2017) (citing White, 137 S. Ct. at 551). To determine
whether qualified immunity applies, the court must
first identify the federal or constitutional right at issue;
then it must attempt to “identify a case where an
officer acting under similar circumstances as [the
defendant] was held to have violated” that right. Id. If
there is no such case, then the right was not clearly
established, and the officer is protected from suit. See
id. at 1117-18. “This is not to say that an official action
is protected by qualified immunity unless the very
action in question has previously been held unlawful,
but it is to say that in the light of pre-existing law the
unlawfulness must be apparent.” Hope v. Pelzer, 536
U.S. 730, 739 (2002) (internal citations omitted).
2. Discussion
Because the Court has already determined that
there is a question of fact whether Defendant Martin
violated Plaintiff’s Fourth Amendment rights, the
qualified immunity analysis turns on whether the right
at issue in this case was clearly established at the time
Plaintiff’s claim arose.
Defendants argue that at the time of Plaintiff’s
arrest,

App. 30
No case law addresses a factual scenario where
a suspect high on methamphetamines, who was
fleeing from a lawful arrest through neighboring
back yards was finally cornered on the roof of an
occupied home and out of officers’ reach, refuses
to comply with orders, jumps or falls down from
the roof, and engages in a fight with officers
requiring use of a police K9 to effectuate his
arrest.
(Doc. 106 at 16.)
Defendants’ characterization of the right at issue is
too narrow. At the time of Plaintiff’s arrest, the Ninth
Circuit Court of Appeals had clearly established that
using unnecessary force against a handcuffed,
non-resistant arrestee could amount to excessive force.
See Guy v. City of San Diego, 608 F.3d 582, 589 (9th
Cir. 2010) (“even when police officers reasonably must
take forceful actions in response to an incident . . . if
the officers go too far by unnecessarily inflicting force
and pain after a person is subdued, then the force . . .
can still be considered excessive”); see also Mendoza v.
Block, 27 F.3d 1357, 1362 (9th Cir. 1994) (holding that
the law was clearly established for qualified immunity
purposes “for a deputy to know that excessive force has
been used when a deputy sics a canine on a handcuffed
arrestee who has fully surrendered and is completely
under control”). In addition, Plaintiff cites to Watkins
v. City of Oakland, Cal., 145 F.3d 1087 (9th Cir. 1998),
in which a police officer allowed his dog to continue
biting the plaintiff who was recoiling from the dog’s
bite and could not immediately comply with orders to
show his hands due to the pain of the dog’s attack. The

App. 31
Ninth Circuit Court of Appeals affirmed the district
court’s denial of qualified immunity to the officer,
holding that “it was clearly established that excessive
duration of the bite and improper encouragement of a
continuation of the attack by officers could constitute
excessive force that would be a constitutional
violation.” Id. at 1093. In an unpublished memorandum
decision filed on April 21, 2020, the Ninth Circuit cited
Watkins, finding “pre-existing law gave [the officer] fair
warning that it would be unlawful to use a canine in a
prolonged manner . . . .” Hartsell v. Cnty. of San Diego,
—F. App’x—, 2020 WL 1923706, at *1 (9th Cir. April
21, 2020).
These cases apply to the conduct at issue here
where, assuming the evidence in a light most favorable
to Plaintiff, even after Plaintiff was handcuffed and the
video appears to show he was subdued, the K9 was
allowed to continue biting Plaintiff for another 12
seconds. See Wilkins v. City of Oakland, 350 F.3d 949,
956 (9th Cir. 2003) (“Where the officers’ entitlement to
qualified immunity depends on the resolution of
disputed issues of fact in their favor, and against the
non-moving party, summary judgment is not
appropriate”). No reasonable officer could have believed
that it was lawful to use a K9 to continue to bite a
suspect after he was handcuffed and lying still.
Accordingly, Defendant Martin is not entitled to
qualified immunity as to Count Three.
Because there are material disputed issues of fact
whether Defendant Martin’s use of force was
reasonable under the circumstances, the Court will

App. 32
deny Defendants’ Motion for Summary Judgment as to
Count Three.
V.

State Law Claims

Defendants argue that the State is entitled to
qualified immunity and statutory immunity on
Plaintiff’s state law claims in Counts One, Three and
Four. (Doc. 105 at 17.)
A. State Law Qualified Immunity.
In Chamberlain v. Mathis, the Arizona Supreme
Court held that “qualified immunity protects
government officials from liability for acts within the
scope of their public duties unless the official knew or
should have known that he was acting in violation of
established law or acted in reckless disregard of
whether his activities would deprive another person of
their rights.” 729 P.2d 905, 912 (Ariz. 1986). Although
it is a question of law whether a defendant is entitled
to immunity, “[w]hen the existence of immunity
depends on disputed factual issues, a jury must resolve
those issues before the court may decide whether the
facts are sufficient to establish immunity.” Pinal Cnty.
v. Cooper 360 P.3d 142, 146 (Ariz. Ct. App. 2015) (citing
Chamberlain, 720 P.2d at 905).
Defendants argue that under this standard they are
immune “if they could have formed a reasonable belief
that the use of K9 Storm to arrest Plaintiff was
constitutional.” (Doc. 105 at 18.) Plaintiff responds that
Defendants are not entitled to qualified immunity
under state law because there are disputed factual
issues which must first be resolved by a jury. (Doc. 114
at 20-21.)

App. 33
The Court agrees with Plaintiff that, at this stage
and when considering the evidence in the light most
favorable to Plaintiff, there are disputed issues of
material fact precluding summary judgment on the
basis of qualified immunity under Arizona law.
B. State Law Statutory Immunity
Defendants also argue they are entitled to statutory
immunity, citing a recent Arizona Supreme Court
decision which held that “statutory presumptions are
triggered when a law enforcement officer intentionally
uses physical force to arrest or capture a suspect and
the suspect is injured.” Ryan v. Napier, 425 P.3d 230,
237 (Ariz. 2018) (citing Ariz. Rev. Stat. §12-716(A)(1).
The statute cited provides:
If the court finds by a preponderance of the
evidence that a plaintiff is harmed while the
plaintiff is attempting to commit, committing or
fleeing after having committed or attempted to
commit a felony criminal act or if a person
intentionally or knowingly caused temporary but
substantial disfigurement or temporary but
substantial impairment of any body organ or
part or a fracture of any body part of another
person, the following presumptions apply to any
civil liability action or claim:
1. A victim or peace officer is presumed to be
acting reasonably if the victim or peace officer
threatens to use or uses physical force or deadly
physical force or a police tool product to either:

App. 34
(a) Protect himself or another person against
another person’s use or attempted use of
physical force or deadly physical force.
(b) Effect an arrest or prevent or assist in
preventing a plaintiff’s escape.
Ariz. Rev. Stat. § 12-716(A)(1).
Defendants argue that because Plaintiff was injured
while fleeing from police and resisting arrest and was
suspected of having recently committed two serious
violent felonies, then Defendant Martin and all officers
who assisted in Plaintiff’s arrest are presumed to have
acted reasonably and Plaintiff’s state law claims fail.
(Doc. 105 at 19.) Plaintiff responds that Arizona
Revised Statutes § 12-716 only applies when a person
is fleeing and “no reasonable inference supports the
notion Plaintiff was fleeing at the time he was bitten by
Storm.” (Doc. 114 at 22.)
Defendants argue that they are further shielded
from liability by Arizona Revised Statutes § 13-409,
which provides that a person is justified in using
physical force against another during an arrest if all of
the following exist:
1. A reasonable person would believe that such
force is immediately necessary to effect the
arrest or detention or prevent the escape.
2. Such person makes known the purpose of the
arrest or detention or believes that it is
otherwise known or cannot reasonably be made
known to the person to be arrested or detained.

App. 35
3. A reasonable person would believe the arrest
or detention to be lawful.
Ariz. Rev. Stat. § 13-409. “If the officer’s use of force is
justified under § 13-409, the officer is immune from
civil liability. Ryan, 245 Ariz. at 63 (citing Ariz. Rev.
Stat. § 13-413).
Defendants argue that Martin’s use of force was
justified because he was using Storm to subdue and
arrest Plaintiff, whom Martin believed might be armed;
Plaintiff was struggling with officers attempting to
handcuff him and refusing commands first to get off
the roof and then to stop resisting; lower levels of force
proved futile; Plaintiff knew the purpose of the arrest;
and Martin had an arrest warrant for Plaintiff, thus
reasonably believing the arrest was lawful. (Doc. 105 at
20.)
Plaintiff responds that § 13-409 only applies if a
“reasonable person” would believe the force is
“immediately necessary to effect the arrest” of a
suspect, and that “a reasonable person could conclude
that the use of Storm was not immediately necessary to
effect Plaintiff’s arrest.” (Id. at 22-23, citing Weekly v.
City of Mesa, 888 P.2d 1346 (Ariz. Ct. App. 1994).) In
Weekly, the plaintiff sued under Arizona’s strict
liability dog bite statute for injuries he received from a
police dog bite. 888 P.2d at 161. The Arizona Court of
Appeals determined that while Arizona Revised
Statutes §§ 13-409 and 13-413 provided a basis for the
City to defend against civil liability for the plaintiff’s
claim, the city needed to establish:

App. 36
(1) the dog was used as physical force against
plaintiff during the course of making or assisting
in an arrest or detention or preventing an escape
after arrest or detention; (2) a reasonable person
would believe that the use of the dog as such
force was immediately necessary to effect the
arrest or detention or to prevent the escape;
(3) the person using the dog had made known to
plaintiff the purpose of the arrest or detention or
believed that it was otherwise known or could
not reasonably be made known to plaintiff; and
(4) a reasonable person would believe plaintiff’s
arrest or detention to be lawful.
Id. at 166.
When considering the evidence in the light most
favorable to Plaintiff, there are disputed issues of
material fact precluding summary judgment on
Plaintiff’s state law claims on the basis of Arizona’s
justification statutes. Accordingly, the Court will deny
summary judgment as to Plaintiff’s state law vicarious
liability claims against the State in Counts One, Two
and Four.5
IT IS ORDERED:
(1)
The reference to the Magistrate Judge is
withdrawn as to Defendants’ Motion for Summary
Judgment (Doc. 105).

5

Defendants do not move for summary judgment on the merits of
Plaintiff’s state law claims.

App. 37
(2)
Defendants’ Motion for Summary Judgment
(Doc. 105) is denied.
(3)
This action is referred to Magistrate Judge
Camille D. Bibles to conduct a settlement conference as
to Plaintiff’s claims against Defendants.
(4)
Counsel shall jointly call Magistrate Judge
Bible’s chambers at 928-774-2566 within 14 days to
schedule a date for the settlement conference.
Dated this 30th day of April, 2020.

/s/___________________________________
Susan R. Bolton
United States District Judge

